                 

                 

                        U.S. ENVIRONMENTAL PROTECTION AGENCY 

                        OFFICE OF INSPECTOR GENERAL 
                 

                 


                        EPA Inaction in Identifying
                        Hazardous Waste
                        Pharmaceuticals May
                        Result in Unsafe Disposal
                        Report No. 12-P-0508                    May 25, 2012




Scan this mobile code
to learn more about
the EPA OIG.
Report Contributors:                               Carolyn Copper
                                                   Steve Hanna
                                                   Roopa Batni
                                                   Tapati Bhattacharyya
                                                   Brooke Shull




Abbreviations

BMP           Best Management Practice
EPA           U.S. Environmental Protection Agency
GAO           U.S. Government Accountability Office
HWPs          Hazardous waste pharmaceuticals
NIOSH         National Institute for Occupational Safety and Health
OIG           Office of Inspector General
ORCR          Office of Resource Conservation and Recovery
OSHA          Occupational Safety and Health Administration
OSWER         Office of Solid Waste and Emergency Response
RCRA          Resource Conservation and Recovery Act
UWR           Universal Waste Rule


Cover photo: Examples of pharmaceuticals. (EPA photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                   12-P-0508
                                                                                                               May 25, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              EPA Inaction in Identifying Hazardous Waste
We conducted this review to
                                    Pharmaceuticals May Result in Unsafe Disposal
evaluate the U.S.
Environmental Protection             What We Found
Agency’s (EPA’s) process to
                                    Since 1980, EPA has not used its RCRA authority to determine whether
identify and appropriately
                                    pharmaceuticals may qualify as hazardous waste. EPA also has not established a
classify pharmaceuticals as
                                    process for the regular identification and review of pharmaceuticals that may qualify
hazardous waste and to ensure
                                    for regulation as hazardous waste. Without a regular process, EPA cannot provide
their safe disposal.
                                    assurance that pharmaceuticals that may pose a hazardous risk to human health and
                                    the environment have been identified. We identified eight chemicals found in
Background                          pharmaceuticals that meet EPA’s criteria for regulation as acute hazardous waste, but
                                    wastes containing these chemicals are not regulated as such. There are over 100 drugs
The discovery of a variety of       that federal occupational safety organizations have identified as hazardous but may
pharmaceuticals in water has        not have been reviewed by EPA to determine whether they may qualify as hazardous
raised concerns about               waste. EPA staff stated they have started examining these drugs for listing as
potentially adverse                 hazardous waste. Further, the state of Minnesota recently noted that there has been a
environmental consequences of       proliferation of pharmaceutical development since RCRA regulations were
these contaminants. Studies         established. Our review has identified a risk that there are unknown but potentially
have suggested the detection of     dangerous unregulated HWPs that may be unsafely disposed and released into the
pharmaceutical compounds in         environment.
treated wastewater effluent,
streams, lakes, seawater,
                                    An additional challenge to ensuring the safe disposal of HWPs is that some health
drinking water, and
                                    care facilities, such as hospitals, may be unaware of federal hazardous waste
groundwater, as well as in
                                    regulations. The state of Minnesota, for example, has reported that there is a “general
sediments and fish tissue. EPA
                                    lack of awareness by the health care industry of RCRA regulatory requirements.”
has the authority under the
                                    This may result in mismanagement of hazardous waste pharmaceuticals.
Resource Conservation and
Recovery Act (RCRA) to
                                    In 2008, EPA proposed an amendment to the Universal Waste Rule to address
regulate hazardous waste
                                    pharmaceutical wastes. However, no action on the Rule has occurred since the close
pharmaceuticals (HWPs) to
                                    of the public comments period in 2009. During our review, EPA staff informed us
ensure safe management and
                                    that the Agency has decided to develop another proposal for the regulation of
disposal practices.
                                    hazardous waste pharmaceuticals at health care facilities. EPA staff stated that “due
                                    to substantial negative public comments received on the 2008 universal waste
                                    proposal, the Agency is developing a revised proposal for regulation of hazardous
For further information, contact
our Office of Congressional and     waste pharmaceuticals at healthcare facilities.” EPA anticipates the proposal will be
Public Affairs at (202) 566-2391.   available for public comment in spring 2013.

The full report is at:               What We Recommend
www.epa.gov/oig/reports/2012/
20120525-12-P-0508.pdf              We recommend that EPA establish a process to review pharmaceuticals for regulation
                                    as hazardous waste and develop an outreach and compliance assistance plan for
                                    health care facilities managing HWPs.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                             THE INSPECTOR GENERAL




                                          May 25, 2012

MEMORANDUM

SUBJECT:	 EPA Inaction in Identifying Hazardous Waste Pharmaceuticals May Result in
          Unsafe Disposal
          Report No. 12-P-0508


FROM:	         Arthur A. Elkins, Jr.

TO:	           Mathy Stanislaus
               Assistant Administrator for Solid Waste and Emergency Response


This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position.
Final determinations on matters in this report will be made by EPA managers in accordance with
established resolution procedures.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days. The recommendations are listed as unresolved because planned
completion dates were not provided. Your response should include a corrective action plan for
agreed-upon actions, including actual or estimated milestone completion dates. Your response
will be posted on the OIG’s public website, along with our comments on your response. Your
response should be provided in an Adobe PDF file that complies with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. Please e-mail your
response to Carolyn Copper at copper.carolyn@epa.gov. If your response contains data that you
do not want to be released to the public, you should identify the data for redaction. We have no
objections to the further release of this report to the public.

If you or your staff have any questions regarding this report, please contact Carolyn Copper at
(202) 566-0829 or copper.carolyn@epa.gov, or Steve Hanna at (415) 947-4527 or
hanna.steve@epa.gov.
EPA Inaction in Identifying Hazardous Waste                                                                                 12-P-0508
Pharmaceuticals May Result in Unsafe Disposal


                                  Table of Contents 


Chapters
   1	   Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Scope and Methodology..............................................................................                5

                Prior Evaluation Coverage ..........................................................................               6


   2	   EPA Has Not Used Its Authority to Assess and Manage 

        Potential Hazards of Pharmaceutical Waste ...................................................                              7


                EPA Has Not Used Its Hazardous Waste Management Authority ..............                                           7

                Health Care Facilities May be Unaware of Their RCRA Obligations ...........                                        9

                EPA Is Developing a New Pharmaceutical Rulemaking..............................                                   10 

                Conclusion ...................................................................................................    11 

                Recommendations ......................................................................................            11     

                Agency Response and OIG Evaluation .......................................................                        11 


   Status of Recommendations and Potential Monetary Benefits..............................                                        13




Appendices
   A	   Pharmaceuticals Meeting Acute Hazardous Waste Criteria...........................                                         14 


   B	   Agency Response to Draft Report and OIG Comment ...................................                                       15 


   C	   Distribution .........................................................................................................    30 

                                   Chapter 1

                                   Introduction
Purpose
            The purpose of this review was to evaluate the U.S. Environmental Protection
            Agency’s (EPA’s) process to identify and appropriately classify pharmaceuticals
            as hazardous waste and to ensure their safe disposal. We addressed the following
            questions:

               1.	 Do EPA’s hazardous waste codes appropriately classify pharmaceuticals
                   as hazardous waste?
               2.	 What process has EPA established to identify and list new
                   pharmaceuticals as hazardous waste?
               3.	 What steps have states taken to identify and regulate additional
                   pharmaceuticals as hazardous waste?
               4.	 How will the Universal Waste Rule (UWR) impact the management of
                   hazardous waste pharmaceuticals (HWPs)? What is the current status of
                   the rule?

Background
            The discovery of a variety of pharmaceuticals in surface, ground, and drinking
            waters around the country has raised concerns about the potentially adverse
            environmental consequences of these contaminants. Although the effects on
            humans are unknown, the U.S. Government Accountability Office (GAO) reports
            that some research has demonstrated the potential impact to human health from
            exposure to pharmaceuticals found in drinking water, such as antibiotics and those
            that interfere with human hormone development. In addition, minute
            concentrations of some pharmaceuticals can have detrimental effects on aquatic
            species, such as hormonal imbalances leading to feminization and reproductive
            problems in fish populations. Studies have suggested the detection of
            pharmaceutical compounds in treated wastewater effluent, streams, lakes,
            seawater, and groundwater, as well as in sediments and fish tissue. For example,
            during 1999 and 2000, the United States Geological Survey conducted a study of
            139 streams across the country and detected pharmaceutical compounds in
            80 percent of the streams sampled.

            In the 2008 proposed universal waste rule, EPA defines a pharmaceutical as any
            chemical product, vaccine, or allergenic, not containing a radioactive component,
            that is intended for use in the diagnosis, cure, mitigation, treatment, or prevention
            of disease or injury in humans or animals. This definition also refers to any
            product with the primary purpose of dispensing or delivering a pharmaceutical.



12-P-0508                                                                                       1
                  Pharmaceutical waste1 includes expired drugs, personal medications, waste
                  materials containing excess drugs (syringes, IV bags, tubing, vials, etc.), and
                  drugs that are intended to be discarded. Generators of hazardous waste
                  pharmaceuticals (HWPs) include: pharmacies, physicians’ and dentists’ offices,
                  outpatient care centers, ambulatory health care services, residential care facilities,
                  veterinary clinics, and reverse distributors.2 Health care facilities may dispose of
                  unused pharmaceuticals, especially residues, down the drain (e.g., intravenous
                  (IV) bags emptied into the sink). According to EPA, for many years, a standard
                  disposal practice at many health care facilities was to flush unused
                  pharmaceuticals down the toilet or drain. Although the domestic sewage
                  exclusion generally allows facilities to flush pharmaceuticals down the drain,
                  EPA believes that facilities should not dispose of their pharmaceuticals down the
                  drain.

                  EPA Definition of Hazardous Waste

                  Under the Resource Conservation and Recovery Act (RCRA), EPA has the
                  authority to regulate the generation, storage, transportation, treatment, and
                  disposal of hazardous waste. Most states have been delegated the primary
                  responsibility for regulating RCRA hazardous waste. Any facility, such as
                  hospitals and other health facilities that generate more than 100 kg (220 lbs.) of
                  hazardous waste per month, or greater than 1 kg (2.2 lbs.) of acute hazardous
                  waste per month, are subject to RCRA hazardous waste regulations. RCRA
                  requires that hazardous wastes be transported in approved containers to permitted
                  hazardous waste disposal facilities by a hazardous waste transporter. RCRA
                  prohibits disposal of hazardous waste in municipal waste landfills, municipal
                  incinerators, or medical waste plants.3

                  EPA’s RCRA regulations establish two ways of identifying hazardous waste:

                       1.	 Characteristic hazardous waste – A waste may be considered hazardous if
                           it exhibits one of the four defined characteristics of hazardous waste:

                                a.	 Ignitability – wastes that can readily catch fire and maintain
                                    combustion.
                                b.	 Corrosivity – wastes that are acidic or alkaline (basic).
                                c.	 Reactivity – wastes that readily explode or undergo violent
                                    reactions or react by releasing toxic gases or fumes.
                                d.	 Toxicity – wastes likely to leach dangerous concentrations of toxic
                                    chemicals into groundwater.


1
  Under RCRA, EPA does not regulate pharmaceuticals until they are discarded as waste. 

2
  Reverse distributors are private companies that provide a service to the health care industry by keeping track of 

manufacturer unused pharmaceutical reimbursement policies, and thus get health care facilities credit for the 

pharmaceuticals prior to sending them off-site for disposal. 

3
  RCRA excludes hazardous waste generated by households from the definition of hazardous waste. 



12-P-0508                                                                                                               2
                      2.	 Listed hazardous waste – EPA may also explicitly identify hazardous
                          wastes through a listing process. Lists of hazardous waste developed by
                          EPA are:

                               a.	 F-list (wastes from non-specific sources) – hazardous wastes from
                                   certain common industrial and manufacturing processes.
                               b.	 K-list (wastes from specific industries).
                               c.	 P- and U- lists of chemicals – hazardous wastes including specific
                                   unused chemicals. Chemicals are included on the U-list based on
                                   toxicity or other characteristics. Chemicals are included on the
                                   P-list if they are acutely toxic. P-list chemicals are regulated when
                                   generated in lower quantities than U-list chemicals.

                 P-listed wastes are identified as acute hazardous waste because the waste has been
                 found to be fatal to humans or animals above certain thresholds/doses. EPA can
                 regulate a waste as acutely hazardous if it has been shown in studies to have:

                         an oral Lethal Dose 504 toxicity for rats of less than 50 milligrams per
                          kilogram,
                         an inhalation Lethal Concentration 50 toxicity for rats of less than
                          2 milligrams per liter, or
                         a dermal Lethal Dose 50 toxicity for rabbits of less than 200 milligrams
                          per kilogram

                 EPA also can regulate a waste as acutely hazardous if it is capable of causing or
                 significantly contributing to an increase in serious irreversible or incapacitating
                 reversible illness.

                 Pharmaceuticals can be included on the U-list if they exhibit any of the four
                 hazardous characteristics described above, or if they contain a toxic constituent
                 and are capable of posing a “substantial present or potential hazard to human
                 health or the environment when improperly treated, stored, transported, or
                 disposed of, or otherwise managed.” Toxic constituents identified by RCRA are
                 chemical compounds or elements which scientific studies show to have toxic,
                 carcinogenic (i.e., cancer-causing), mutagenic (i.e., causing genetic mutation
                 which can lead to cancer), or teratogenic (i.e., causing birth defects) effects on
                 humans or other life forms.

                 Volume of Hazardous Waste Pharmaceuticals

                 According to EPA, pharmaceuticals are commonly used for diagnosing, treating,
                 or preventing an extremely broad range of medical problems and for cosmetic and
                 lifestyle purposes. HWPs are generated by a large number of facilities from
                 different sectors across the country. However, estimates of the volume of HWPs
4
 The LD50 and LC50 value is a measure of acute toxicity, and indicates the ability of a toxic or poisonous
substance to kill half the population in animal studies after a specified test duration.


12-P-0508                                                                                                    3
                 may be understated because of EPA’s failure to identify any new HWPs since
                 1980. In addition, volumes may be understated because EPA believes that many
                 health care facilities, such as hospitals, are unaware of their RCRA reporting
                 obligations5 for hazardous waste. Further, federal regulations require only large
                 quantity generators to report their hazardous waste generation types and volumes
                 to EPA. EPA estimates that hospitals and reverse distributors generate about
                 15,000 tons of HWPs each year. We note that, by itself, volume is not the only
                 meaningful measure of the potential HWP problem, as many pharmaceuticals are
                 toxic at very low concentrations.

                 EPA’s Best Management Practices Guidance for Pharmaceuticals

                 EPA has taken some action to address concerns about possible effects on human
                 health and the environment from the release of pharmaceuticals into the
                 environment. In August 2010, EPA’s Office of Water issued a draft guidance
                 document, Best Management Practices for Unused Pharmaceuticals at Health
                 Care Facilities. As defined in this guidance, EPA’s goal is to keep
                 pharmaceuticals out of U.S. waters. The guidance recommends best management
                 practices (BMPs) to be used by health care facilities (e.g., hospitals) to minimize
                 the release of pharmaceuticals to the environment. EPA identified these BMPs
                 after:

                      	 site visits at 12 health care facilities;
                      	 consulting with over 700 stakeholders, including health care
                         professionals, government entities, health care industry associations, and
                         companies that manage unused pharmaceuticals;
                       review of disposal data from 20 hospitals and long-term care facilities
                         (e.g., nursing homes, assisted living facilities); and
                       review of literature data, reports, and state recommendations.

                  The guidance describes BMPs that EPA recommends to health care facilities,
                  long-term care facilities, medical clinics, and doctors’ offices, when managing
                  and disposing of unused pharmaceuticals.

                 EPA’s 2008 Universal Waste Rule Amendment to Address Hazardous
                 Waste Pharmaceuticals

                 In December 2008, EPA proposed to add HWPs to the UWR6. The UWR,
                 originally issued on May 11, 1995, modified RCRA hazardous waste regulations
                 by establishing a set of streamlined requirements for the collection of certain
                 widely dispersed hazardous wastes, called ‘‘universal wastes.’’ According to

5
  Hazardous waste generators producing more than 2,200 pounds of hazardous waste, or more than 2.2 pounds of
acute hazardous waste, in a calendar month must report the waste type and volume to EPA every 2 years. The total
volume of hazardous waste reported in 2009 was approximately 35 million tons.
6
  Federal Register: December 2, 2008 (Volume 73, Number 232), Page 73519-73544, at
http://www.epa.gov/fedrgstr/EPA-WASTE/2008/December/Day-02/f28161.htm.


12-P-0508                                                                                                          4
            EPA, the proposed 2008 rule would facilitate better and environmentally sound
            management of pharmaceutical wastes by streamlining the generator requirements
            and encouraging generators of HWPs to manage them under the provisions of the
            UWR. EPA believed this would ensure that HWPs are properly disposed of and
            treated as hazardous wastes. In 2009, EPA summarized comments on the
            proposed rule. According to EPA, there was substantial negative comment on the
            proposed rule such that the Agency decided that it could not address the
            comments without re-proposing a new rule. EPA has recently stated that the
            Agency has decided to develop another proposal for health care facility-specific
            regulations for the management of hazardous waste pharmaceuticals.

            Other Federal Agency Hazardous Drug Lists

            The National Institute for Occupational Safety and Health (NIOSH) is the federal
            agency responsible for conducting research and making recommendations for the
            prevention of work-related injury and illness. NIOSH publishes a List of
            Antineoplastic (e.g., chemotherapy) and Other Hazardous Drugs in Health Care
            Settings, also referred to as the NIOSH Drug Alert list, listing what it believes
            should be handled as hazardous materials. The Occupational Safety and Health
            Administration (OSHA) hazard communication standard requires facilities to
            identify hazardous drugs that must be handled using special precautions. OSHA
            developed a hazardous drug list in the early 1990s and it remains a primary
            reference for identifying drugs that should be handled as hazardous waste. OSHA
            lists 61 pharmaceuticals on its hazardous drug list and the latest version of the
            NIOSH list published in 2010 includes 157 drugs.

Scope and Methodology

            We conducted our work from August 2011 to February 2012 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the evaluation to obtain sufficient, appropriate evidence to
            provide a reasonable basis for our findings and conclusions based on our
            objectives. We assessed whether EPA has a systematic process to identify and
            appropriately classify pharmaceuticals as hazardous waste and to ensure their safe
            disposal. We believe the evidence obtained provides a reasonable basis for our
            findings and conclusions based upon our objectives.

            We interviewed program and information technology staff of the EPA Office of
            Resource Conservation and Recovery (ORCR), scientists and program staff of the
            EPA Office of Research and Development, and staff of the EPA Region 9
            Waste Management Division Enforcement. We interviewed state environmental
            protection program staff from Minnesota, Washington, and California.
            In addition, we interviewed staff from the U.S. Drug Enforcement Agency’s
            Office of Diversion Control in Washington, DC; and the Director of
            PharmEcology, a Waste Management company.



12-P-0508                                                                                    5
            We reviewed EPA and state programs, regulations, and guidance documents
            related to HWPs, including EPA’s Proposed UWR and BMP guidance. We also
            reviewed the following documents to identify potential HWPs and toxicity data:

                  EPA P- and U-lists of hazardous waste.

                  EPA Endocrine Disruptors list. 

                  NIOSH Drug Alert list of hazardous pharmaceuticals. 

                  OSHA Chemical list and Carcinogen list. 


Prior Evaluation Coverage

            The following Office of Inspector General (OIG) and GAO reports addressed
            issues related to the scope of our review:

               	 OIG Report No. 11-P-0215, EPA’s Endocrine Disruptor Screening
                  Program Should Establish Management Controls to Ensure More Timely
                  Results, May 3, 2011.
               	 GAO Report No. GAO-11-346, Environmental Health: Action Needed to
                  Sustain Agencies’ Collaboration on Pharmaceuticals in Drinking Water,
                  August 8, 2011.




12-P-0508                                                                                    6
                                             Chapter 2

       EPA Has Not Used Its Authority to Assess and 

     Manage Potential Hazards of Pharmaceutical Waste 

                    Although EPA has the authority under RCRA, it has not added to its regulations
                    pharmaceuticals that may qualify as hazardous waste since 1980. EPA also has
                    not established a process for the regular identification and review of
                    pharmaceuticals that may qualify for regulation. EPA believes many health care
                    facilities flush HWPs down drains, a potentially harmful disposal method. In
                    2008, EPA proposed an amendment to the UWR, in part to address health care
                    facilities’ unfamiliarity or confusion with RCRA requirements. However, the rule
                    has been stalled since 2009 and EPA just recently decided it would develop
                    another proposal for healthcare facility-specific regulations for the management
                    of HWPs. Given the proliferation of pharmaceutical development since RCRA
                    was enacted, EPA inaction on adding to its regulations pharmaceuticals that
                    qualify as hazardous waste may result in unsafe disposal and releases of
                    dangerous pharmaceuticals into the environment.

EPA Has Not Used Its Hazardous Waste Management Authority
                    In 1980, EPA identified approximately 31 chemicals used as pharmaceuticals that
                    met the RCRA hazardous waste criteria but EPA has not updated its list since that
                    time. Moreover, EPA has not established a process for the regular identification
                    and review of pharmaceuticals that may qualify for regulation as HWPs. The
                    Food and Drug Administration has approved an average of 30 new drugs each
                    year since 1996. Consequently, RCRA hazardous waste regulations are not
                    keeping up with drug development and the potential hazards they may pose if
                    mismanaged and disposed without the necessary protections to human health and
                    the environment. Without an established process to review pharmaceuticals, EPA
                    cannot ensure that it has identified pharmaceutical contaminants that may pose a
                    hazardous risk to human health and the environment.

                    Many More Drugs Than EPA Has Identified May Be Hazardous

                    There are more than 100 drugs that NIOSH and OSHA have identified as
                    hazardous but may not have been reviewed by EPA to determine if they qualify
                    for hazardous waste regulation. We reviewed both lists and identified eight
                    chemicals from the NIOSH list of hazardous pharmaceuticals that meet EPA
                    criteria for regulation as acute hazardous waste, but are not regulated.7 We also
                    identified three U-list pharmaceuticals that meet P-list criteria based on rat oral
                    LD50 values.7 Further, we identified at least 21 additional pharmaceuticals with


7
    See appendix A for additional details.


12-P-0508                                                                                                 7
                  LD50 values between 50 and 500 mg/kg, which are within the range of values
                  found for existing U-list pharmaceuticals.8

                  According to EPA’s 2010 draft guidance, Best Management Practices for Unused
                  Pharmaceuticals at Health Care Facilities, many health care facilities, such as
                  hospitals, use the NIOSH list of hazardous materials to identify unused
                  pharmaceuticals that should be handled similarly to hazardous waste as defined
                  under RCRA. The draft guidance further states that, although RCRA does not
                  require facilities to manage NIOSH-listed hazardous materials the same as RCRA
                  hazardous waste, EPA recommends RCRA guidelines as a BMP for managing
                  NIOSH-listed hazardous materials. Drugs considered hazardous by the NIOSH
                  definition include those that exhibit characteristics in humans or animals, such as
                  carcinogenicity (cancer-causing), reproductive toxicity, organ toxicity at low
                  doses; and structure and toxicity profiles of new drugs that mimic existing drugs
                  determined hazardous by the above criteria. There are 157 drugs identified on the
                  NIOSH Drug Alert list that NIOSH recommends handling as hazardous materials
                  to avoid occupational exposure. These include chemotherapy drugs, hormones
                  (e.g., estrogens), and antibiotics.

                  In comments to EPA on EPA’s August 2010 guidance document, Best
                  Management Practices for Unused Pharmaceuticals at Health Care Facilities, the
                  state of Minnesota noted that because EPA has not reviewed any pharmaceuticals
                  for regulation as hazardous waste since the promulgation of RCRA regulations
                  (i.e., 1980), some dangerous pharmaceuticals are not subject to more rigorous
                  regulation as hazardous or acute hazardous waste. Specifically, the state said:

                           The proliferation of pharmaceutical development since the
                           promulgation of RCRA regulations, coupled with the absence of
                           any updates to the U- or P-lists, results in some extremely
                           dangerous pharmaceutical waste (e.g., chemotherapeutic drugs) not
                           being listed or characteristic once fully evaluated, while other
                           pharmaceutical waste (e.g., warfarin and nicotine) that is much less
                           hazardous in finished drug form is regulated as acutely toxic waste.
                           The fact that there is still no federal mandatory waste management
                           regulation for most chemotherapy drugs is alarming. Encouraging
                           health care facilities to manage NIOSH hazardous drugs as
                           hazardous waste does not adequately address the danger.

                  In addition, in its comments on EPA’s 2008 UWR amendment, the state of
                  Minnesota also reflects the problem with not having a regular process to evaluate
                  pharmaceuticals for hazardous waste regulation. Specifically, the state said:

                           The P-List of hazardous waste is out-of-date to the extent that it is
                           largely irrelevant with regard to currently used pharmaceuticals

8
 This potentially defines possible candidate U-list pharmaceuticals. U-listing requires additional justification
beyond an LD50 value.


12-P-0508                                                                                                          8
                          and hence currently generated pharmaceutical waste. Many of the
                          hazardous pharmaceuticals that are listed on either the P-List or
                          U-List are no longer in common use. At the same time, a plethora
                          of new, more toxic pharmaceuticals are not listed at all, despite the
                          fact that they are being generated in a wide variety of health care
                          facilities.

Health Care Facilities May be Unaware of Their RCRA Obligations
                 EPA has learned, from its communication with stakeholders, and stated in its cost-
                 benefit analysis of the 2008 Universal Waste proposed rule, that “many healthcare
                 facilities have been unable to comply with the RCRA hazardous waste regulations
                 as they relate to hazardous pharmaceutical wastes and often manage these wastes
                 improperly.”9 According to EPA, health care workers, retail pharmacy employees,
                 and other pharmaceutical generators are often unfamiliar with or confused by
                 RCRA hazardous waste management requirements, prompting them to
                 improperly dispose of hazardous pharmaceuticals as municipal or bulk wastes.
                 Outreach and enforcement efforts undertaken in Minnesota and Washington have
                 indicated that confusion and a lack of awareness exist among health care
                 facilities, such as hospitals, regarding the applicability of RCRA regulations to
                 their pharmaceutical wastes. EPA also acknowledges that many health care-
                 related facilities are unaware of their RCRA obligations, or, even if there is
                 knowledge of RCRA, they have problems training workers to properly manage
                 hazardous wastes. ORCR staff informed us that they could implement outreach
                 activities to assist with education and compliance. However, at this time, EPA
                 does not have a comprehensive outreach and compliance assistance plan for
                 HWPs that states can use to improve RCRA compliance.

                 Improper Management of Pharmaceuticals in Health Care Facilities

                 State environmental agencies in Minnesota and Washington have conducted
                 outreach and enforcement activities in response to confusion and unfamiliarity
                 among the health care industry about RCRA rules for HWPs. For example, the
                 Minnesota Pollution Control Agency developed a Health Care Initiative in 2002
                 to address widespread noncompliance with RCRA regulations. They began with
                 an outreach program that provided training to the health care industry, followed
                 by inspections and enforcement. From 2004 to 2007, they identified 2 million
                 pounds of pharmaceuticals that had been properly managed as a result of
                 compliance and enforcement activities. The Washington Department of Ecology
                 created enforcement guidance and conducted outreach activities to educate
                 hospitals about proper disposal of pharmaceutical wastes. These outreach efforts
                 were in response to hospitals’ requests for clarification on how to identify and
                 manage HWPs, particularly controlled substances.

9
 Assessment of the Potential Costs, Benefits, and Other Impacts of Adding Pharmaceuticals to the Universal Waste
Rule, as Proposed. EPA-HQ-RCRA-2007-0932-0010, October 2008, page 1.


12-P-0508                                                                                                      9
            In addition, EPA Regions 1 and 2 have increased enforcement activities related to
            improper disposal of hazardous pharmaceuticals. In 2004, Region 1 notified
            250 hospitals in New England of its intention to enforce hazardous waste laws for
            health care facilities. In 2003 and 2004, Region 2 identified violations at health
            care facilities, leading to fines ranging from $40,000 to $280,000. In 2010, five
            hospitals and nursing homes were cited by the New York Attorney General for
            failure to properly identify, track, and dispose of pharmaceuticals and other
            wastes defined as hazardous waste under RCRA.

EPA Is Developing a New Pharmaceutical Rulemaking
            In 2008, EPA proposed an amendment to its 1995 UWR to provide a system for
            disposing HWPs that is protective of public health and the environment. The
            proposed rule was aimed at streamlining the current regulations governing HWPs
            to ensure that larger quantities of these wastes are managed properly. By March
            2009, EPA staff stated they had received approximately 100 stakeholder
            comments on the rule. Stakeholders commenting on the proposal expressed
            concerns over the lack of notification and tracking requirements for facilities that
            handle and transport universal pharmaceutical wastes. According to EPA,
            generators of HWPs also have expressed concerns related to making hazardous
            waste determinations, changes in generator status resulting from generation of
            acutely hazardous waste, regulation of additional pharmaceuticals as RCRA
            hazardous waste, and accumulation time limits.

            Shortly after receiving and reviewing public comments in 2009, EPA determined
            that the 2008 UW proposal could not be used as a basis for a final rule that would
            address commenters’ concerns. In the response to the draft report (see Appendix
            B) ORCR staff said that in the fall of 2010, they began developing a new proposal
            for the health care industry for managing hazardous waste pharmaceuticals.
            ORCR staff further stated that in September of 2011 the Agency completed Early
            Guidance, the first of three major milestones in its rule development process, and
            completed Option Selection, the second milestone, in April of 2012. They
            acknowledged that there are issues not properly addressed within the current
            version of the proposed rule and are working to identify areas that need to be
            addressed in the future version of the rule. Until a rule is finalized, concerns
            raised by pharmaceutical waste generators related to identification and
            management of hazardous pharmaceuticals, generator status, and accumulation
            time limits remain unresolved. EPA has recently stated on its UWR website that
            “the Agency has decided to develop another proposal for health care facility-
            specific regulations for the management of hazardous pharmaceutical wastes in
            order to provide a regulatory scheme that addresses the unique issues that
            hospitals, pharmacies and other health care-related facilities face. It is anticipated
            that the proposal will be available for public comment in Spring 2013.” EPA has
            also included updated information on the UWR status in the EPA Fall 2011
            Regulatory Agenda.


12-P-0508                                                                                      10
Conclusion

            For more than 30 years, EPA has not used its RCRA authority to determine
            whether pharmaceuticals may qualify as hazardous waste. This may mean some
            drugs are disposed and managed in ways that are not safe for humans and the
            environment. EPA’s belief that there is widespread noncompliance in the health
            care industry with RCRA hazardous waste regulations further compounds the
            potential risks to human health and the environment from unregulated HWPs. In
            addition, the idle status of EPA’s rule to improve management of HWPs, coupled
            with its primary reliance on “best management practices” to ensure human health
            and environmental protection, represent small steps in an environment where
            hundreds of pharmaceutical products are widely used throughout the nation.
            EPA has recently published its intent to develop another proposal to address the
            management of pharmaceutical wastes at health care facilities. Over 100 drugs
            have been identified by other federal agencies as hazardous pharmaceuticals,
            whereas EPA has identified 31 hazardous pharmaceutical compounds. If EPA’s
            hazardous waste rules do not keep up with new drug development or ensure that
            regulated entities understand and comply with their obligations, uncertainties
            about human health and environmental risks from hazardous pharmaceuticals are
            likely to grow.

Recommendations
            We recommend the Assistant Administrator for Solid Waste and Emergency
            Response:

                   1.	 Identify and review existing pharmaceuticals to determine
                       whether they qualify for regulation as hazardous waste.

                   2.	 Establish a process to review new pharmaceuticals to
                       determine whether they qualify for regulation as hazardous
                       waste.

                   3.	 Develop a nationally consistent outreach and compliance
                       assistance plan to help states address challenges that health
                       care facilities, and others as needed, have in complying with
                       RCRA regulations for managing HWPs.

Agency Response and OIG Evaluation
            We reviewed the Office of Solid Waste and Emergency Response’s (OSWER’s)
            comments and made changes to the report as appropriate. Appendix B provides
            the full text of OSWER’s response and the OIG’s comments.




12-P-0508                                                                                 11
            OSWER does not clearly agree or disagree with recommendations 1 and 2, and
            agrees with recommendation 3. In its response to recommendation 1, OSWER
            agrees that pharmaceuticals are a category of chemicals that need attention and
            stated that it has recently completed a research effort to identify and evaluate new
            and existing pharmaceuticals for potential addition to the lists of regulated
            hazardous wastes. In its response to recommendation 2, OSWER states that it will
            consider the next steps it can take when it completes actions on recommendation 1.
            OSWER acknowledges that the next steps could include activities consistent with
            OIG recommendation 2. We will continue to recommend that EPA adopt a process
            to review new pharmaceuticals to determine whether they qualify for regulation as
            hazardous waste, because listing of hazardous waste is integral to the RCRA
            program.

            All recommendations are listed as unresolved. In its 90-day response to this
            report, EPA should indicate agreement or disagreement with recommendations 1
            and 2 and include a detailed corrective action plan with estimated milestone dates
            for all recommendations.




12-P-0508                                                                                   12
                                  Status of Recommendations and
                                    Potential Monetary Benefits

                                                                                                                             POTENTIAL MONETARY
                                                     RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                 Planned
    Rec.    Page                                                                                                Completion   Claimed    Agreed-To
    No.      No.                          Subject                           Status1      Action Official           Date      Amount      Amount

     1       11     Identify and review existing pharmaceuticals to           U       Assistant Administrator
                    determine whether they qualify for regulation as                   for Solid Waste and
                    hazardous waste.                                                  Emergency Response

     2       11     Establish a process to review new pharmaceuticals         U       Assistant Administrator
                    to determine whether they qualify for regulation as                for Solid Waste and
                    hazardous waste.                                                  Emergency Response

     3       11     Develop a nationally consistent outreach and              U       Assistant Administrator
                    compliance assistance plan to help states address                  for Solid Waste and
                    challenges that health care facilities, and others as             Emergency Response
                    needed, have in complying with RCRA regulations
                    for managing HWPs.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0508                                                                                                                                      13
                                                                                                  Appendix A

                        Pharmaceuticals Meeting
                      Acute Hazardous Waste Criteria
        Pharmaceutical         P/U code              Rat Oral LD50 (mg/kg)
          NIOSH-listed hazardous pharmaceuticals not listed as EPA hazardous waste
           Carmustine            None                           20
            Cisplatin            None                          25.8
           Colchicine            None                            26
          Dactinomycin           None                           7.2
        Mechlorethamine          None                            10
            Oxytocin             None                          20.52
            Thiotepa             None                            23
       Vinorelbine tartrate      None                           26
                          P-listed RCRA hazardous waste pharmaceuticals
         Arsenic trioxide        P012                          14.6
          Epinephrine            P042                            30
            Nicotine             P075                            50
          Nitroglycerin          P081                           105
          Phentermine            P046                Rat oral LD50 not found
         Physostigmine           P204                           4.5
         Physostigmine
                                 P188                Rat oral LD50 Not found
            salicylate
        Warfarin >0.3%           P001                           1.6
           U-listed RCRA hazardous waste pharmaceuticals with P-level LD50 values
           Melphalan             U150                          11.2
          Mitomycin C            U010                           30
         Uracil mustard          U237                          3.55
       Source: OIG analysis. Rat oral LD50 values were obtained from toxicity data at the National Library
       of Medicine ChemIDPlus Advanced website. The value for Vinorelbine tartrate was obtained from
       an Internet Material Safety Data Sheet, and Colchicine was obtained from a Food and Drug
       Administration abstract. The NIOSH chemicals listed are those we could identify that meet EPA’s
       criteria for regulation as acute hazardous waste but are not regulated.




12-P-0508                                                                                                    14
                                                                                  Appendix B

                  Agency Response to Draft Report
                        and OIG Comment




MEMORANDUM


SUBJECT:      Response to the Office of Inspector General Draft Audit Report, EPA
              Inaction in Identifying Hazardous Pharmaceutical Waste May Result in
              Unsafe Disposal

FROM:         Mathy Stanislaus
              Assistant Administrator

TO:           Elizabeth Grossman
              Acting Assistant Inspector General for Program Evaluation
              Office of Inspector General

        Thank you for the opportunity to review and respond to the Office of Inspector General
(OIG) draft audit report, EPA Inaction in Identifying Hazardous Pharmaceutical Waste May
Result in Unsafe Disposal. The purpose of this memorandum is to transmit the Office of Solid
Waste and Emergency Response’s (OSWER) response to the OIG draft report and its
recommendations. This memorandum addresses the report’s recommendations; Attachment 1
provides detailed comments on the report.

        Before responding to the recommendations, however, I would like to provide some
background on the Resource Conservation and Recovery Act (RCRA) hazardous waste
identification regulations. This serves as context for the issue that you have raised on
pharmaceuticals. The basic RCRA waste identification regulations were first established in 1980.
Major revisions were made in response to the Hazardous and Solid Waste Amendments (HSWA)
of 1984. We added additional listings of hazardous wastes required under HSWA for wastes
from specific sources; the final listing was completed in 2005. In 1990 we revised the Toxicity
Characteristic, also in response to a HSWA directive. Since that time, new technologies, such as
nanotechnology and biotechnology, and new and modified organic and inorganic chemicals are
constantly being developed, generating new wastes that may pose risks when disposed of.
Resources to evaluate new waste streams and regulate them appropriately are increasingly
limited. Within these limitations, however, we are working to address those that most need
attention.




12-P-0508                                                                                        15
OIG RECOMMENDATIONS AND OSWER RESPONSES

OIG Recommendation 1: Identify and review existing pharmaceuticals to determine whether
they qualify for regulation as hazardous waste.

OSWER Response 1:

       OSWER agrees that pharmaceuticals are a category of chemicals that need attention and
has recently completed a research effort to identify and evaluate new and existing
pharmaceuticals for potential addition to the lists of regulated hazardous wastes.

        To make the best use of our very limited resources, we have prioritized our work in a
number of ways. First, we focused on pharmaceuticals that had been identified as chemicals of
concern in processes designed to identify pharmaceuticals of high risk already conducted by
other federal agencies. We used lists developed by the National Institute for Occupational Safety
and Health (NIOSH) and the Occupational Safety and Health Administration (OSHA).10 Second,
we gathered readily available existing toxicological information about these pharmaceuticals.
Third, we compared the existing available information to the defined regulatory standard for
identifying acutely hazardous waste. The work that we conducted and the results we found were
similar to the research recently done by your staff as part of your investigation and presented in
the Appendix to your report.

       OSWER is now reviewing the results of this project and deciding on next steps that could
be completed within available resources to address identified potential risks from disposal of
pharmaceuticals. (See Attachment for further discussion regarding the listing of hazardous waste
pharmaceuticals.) Possible next steps range from taking no action to potential regulatory
considerations. We caution that, due to limited resources, the work we have conducted is narrow
in scope and has a number of limitations. As we evaluate next steps, we will consider whether
and how these limitations could be addressed with available resources.

OIG Response: OSWER does not clearly agree or disagree with this recommendation.
However, OSWER agrees that pharmaceuticals are a category of chemicals that need attention
and stated that it has recently completed a research effort to identify and evaluate new and
existing pharmaceuticals for potential addition to the lists of regulated hazardous wastes. In its
90-day response to the final report, OSWER should agree or disagree with the recommendation,
and, as appropriate, provide actual or estimated milestone completion dates for actions to
respond to this recommendation. In addition OSWER should provide a complete description of
its corrective action plan for this recommendation. This recommendation will be designated as
unresolved in the final report.

OIG Recommendation 2: Establish a process to review new pharmaceuticals to determine
whether they qualify for regulation as hazardous waste.


10
  NIOSH List of Antineoplastic and Other Hazardous Drugs in Healthcare Settings 2010 (157 drugs) and OSHA
Technical Manual, Section VI, Chapter 2, Appendix VI:2-1 Some Common Drugs Considered Hazardous (61
drugs).


12-P-0508                                                                                                   16
OSWER Response 2:

       As part of OSWER’s decision on next steps as discussed in Response 1, we will consider
the appropriate next steps to take given significant resource constraints and competing priorities.
The next steps to be considered could include a process to review newly developed
pharmaceuticals.

OIG Response: OSWER’s response to recommendation 2 is linked to its response on
recommendation 1, which OSWER does not clearly agree or disagree with. OSWER states that it
will consider the next steps it can take when it completes actions on recommendation 1. OSWER
acknowledges that the next steps could include activities consistent with OIG recommendation 2.
We continue to recommend that EPA adopt a process to review new pharmaceuticals to
determine whether they qualify for regulation as hazardous waste, because listing of hazardous
waste is integral to the RCRA program. As stated in EPA’s RCRA Orientation Manual, “Proper
hazardous waste identification is essential to the success of the RCRA program.” This
recommendation will be designated as unresolved in the final report. In its 90-day response to the
report, EPA should indicate agreement or disagreement with recommendation 2, and, as
appropriate, provide estimated milestone completion dates for agreed-to corrective actions along
with a description of the corrective action plan.

OIG Recommendation 3: Develop a nationally consistent outreach and compliance assistance
plan to help states address challenges health care facilities, and others as needed, have in
complying with RCRA regulations for managing HPWs.11

OSWER Response 3:

    OSWER agrees with the recommendation. Our response includes three planned phases: 1)
continue ongoing outreach and compliance assistance for the current regulations; 2) propose
revisions to RCRA regulations to more effectively address hazardous waste pharmaceuticals in
the health care sector; and 3) as we do for all new rules, develop a communications plan detailing
outreach efforts to implement the new regulations.

       	 Phase 1: We note that OSWER and the Office of Enforcement and Compliance
          Assurance (OECA) have already done a great deal of work to assist states and the
          regulated community with implementation of and compliance with the current RCRA
          regulations for hazardous waste pharmaceuticals. Examples are listed below. Within
          available resources, we will continue these kinds of outreach and compliance assistance
          efforts for the current regulations.

               1.	 Healthcare Environmental Resource Center (HERC) - HERC provides
                   compliance assistance and pollution prevention information to the healthcare
                   sector. It is funded by OECA's Office of Compliance, managed by the Office of
                   Chemical Safety and Pollution Prevention, and OSWER provides technical
                   expertise on RCRA. HERC offers compliance assistance to healthcare facilities

11
     Hazardous pharmaceutical waste.


12-P-0508                                                                                          17
               and veterinarians, and a center devoted to dentists is currently being developed.
               (http://www.hercenter.org)

            2.	 "Managing Pharmaceutical Waste: A 10-Step Blueprint for Healthcare Facilities
                in the United States" (The Blueprint) - The Blueprint provides hospitals a step-by-
                step guide for developing and implementing a comprehensive pharmaceutical
                waste management program. While the most recent version (revised August 2008)
                was funded by HERC, the original Blueprint (April 2006) was funded by OSWER
                and managed by EPA Region 1. The Office of Resource Conservation and
                Recovery Staff (ORCR) staff reviewed and provided comments on both versions.
                (http://practicegreenhealth.org/sites/default/files/upload-
                files/pharmwasteblueprint.pdf)

            3.	 Development of healthcare-specific memoranda: Through guidance memoranda,
                OSWER has addressed various healthcare-specific pharmaceutical waste issues
                that have been raised by the regulated community. For example, most recently, in
                November 2011,ORCR issued guidance for managing containers that held P-
                listed pharmaceuticals, most commonly warfarin and nicotine. The guidance
                outlined several approaches generators may be able to use to address this issue. In
                particular, the EPA pointed out that only the weight of the residue in the container
                counts towards the generator status and that the container itself is not a hazardous
                waste. This guidance has been very well received by the industry.

            4.	 Outreach: OSWER maintains close communication with stakeholders on these
                issues and has made numerous presentations on pharmaceutical waste issues,
                including updates on the pharmaceutical rulemaking, at conferences and webinars
                hosted by the regulated community and by EPA.

   	 Phase 2: As noted in your report, we are in the process of developing major revisions to
      the hazardous waste regulations to make them more effective for the health care sector
      and the hazardous waste pharmaceuticals they generate. This step will help states with
      implementation and the regulated community with compliance with the RCRA
      regulations for hazardous waste pharmaceuticals. Our current plans anticipate publication
      of a proposed rule in March 2013.

   	 Phase 3: As we do for all new rules, as we complete the revisions to the regulations,
      OSWER will develop a communications plan detailing outreach steps to assist states with
      adoption and implementation of the new regulations and to assist the regulated
      community with learning about and coming into compliance with the new regulations.

OIG Response: OSWER agrees with recommendation 3. OSWER is taking steps to
communicate with health care facilities to assist compliance with RCRA regulations for
managing HWPs. The activities described meet the intent of the recommendation. However,
because estimated or actual milestone dates were not included, this recommendation will be
listed as unresolved in the final report. In its 90-day response to the report, EPA should provide
estimated or actual completion dates for the milestones.



12-P-0508                                                                                          18
       OSWER welcomes the opportunity to continue working with OIG to implement these
recommendations and to strengthen its hazardous waste identification program. If you have any
questions, please contact Suzanne Rudzinski, in the Office of Resource Conservation and
Recovery, at (703) 308-8895.

Attachment




12-P-0508                                                                                  19
                                         ATTACHMENT 

            EPA Comments on OIG February 29, 2012 Draft Report EPA Inaction in Identifying

                   Hazardous Pharmaceutical Waste May Result in Unsafe Disposal



GENERAL COMMENT REGARDING HAZARDOUS WASTE IDENTIFICATION

The report does not appear to fully appreciate the complexities of listing a chemical as a commercial
chemical product. The report says (page 3):

        P and U lists of chemicals – hazardous wastes including specific unused chemicals. Chemicals are
        included on the U list based on toxicity and characteristics. Chemicals are included on the P list if
        they are acutely toxic. P list chemicals are managed more stringently than U list chemicals.

The report correctly cites the criteria for listing chemicals as P-listed waste. However, the description for U-
listed chemicals is much too simplified and does not fully delineate the process for listing a chemical on the
U-list. The report states (pages 3 and 7 - 8):

        Pharmaceuticals can be included on the U list if they exhibit any of the hazardous characteristics
        described above, or if they contain a toxic constituent and are capable of posing a “substantial
        present or potential hazard to human health or the environment when improperly treated, stored,
        transported, or disposed of, or otherwise managed.”

        Further, we identified at least 21 additional pharmaceuticals with LD50 values between 50 and 500
        mg/kg, which are within the range of values found for existing U-list pharmaceuticals.8

        8 This potentially defines possible candidate U-list pharmaceuticals. U-listing requires additional
        justification beyond an LD50 value.

In fact, the process for listing chemicals on the U-list is not a matter of simply comparing LD50 values.
Therefore, the results provided in the report using such a comparison are not meaningful. As the report
itself noted (page 3), unless a pharmaceutical exhibits any of the hazardous characteristics, listing a
chemical on the U-list requires that the Agency demonstrate that the chemical poses a “substantial present
or potential hazard to human health or the environment” when improperly managed. The regulations for this
listing approach are set out in 40 CFR 261.11(a)(3). These regulations specify a number of factors that
must be considered, including:

             the toxicity and concentrations of the hazardous constituents in the waste, 

             the quantity of the waste generated, 

             the potential for the constituents to migrate, persist, and bioaccumulate in the environment, 

             any cases of environmental damage from improper management, and 

             plausible types of management of the waste. 


For all recent listings, EPA has used risk assessment tools to assess potential risks from waste
management to encompass most of these factors. Furthermore, whether a waste is listed or not depends to
a great degree on how the waste is being managed. That is, the waste must present a “substantial” hazard


12-P-0508                                                                                                       20
based on “plausible” management practices. Therefore, while the inherent toxicity of a chemical in a waste
is important, the other factors in 261.11(a)(3) must be considered in evaluating a chemical for listing as a
U-list hazardous waste. This type of assessment requires a large amount of information about a waste, and
listing a waste using these criteria requires a significant effort and resources.

OIG Response: The OIG acknowledges the potential complexity beyond LD50 values for
U-listed waste. The report specifically states criteria for U-listing in EPA Definition of
Hazardous Waste Chapter 1 pages 2-3, and also states in Chapter 2 footnote 8 page 8 that U-
listing requires additional justification.

SPECIFIC COMMENTS

Entire report:

    1.	 When referring to wastes that are currently identified by RCRA regulation as hazardous waste,
        recommend using the term “Hazardous Waste Pharmaceutical” (HWP) instead of “Hazardous
        Pharmaceutical Waste” (HPW). Because “hazardous waste” is a specific regulatory phrase, it is
        clearer to use it directly in the term. Also recommend using another term, such as “non-regulated
        pharmaceutical waste” for discarded pharmaceuticals that may be of concern, but are not currently
        regulated under RCRA. This would clarify whether the text is referring to RCRA-regulated or non-
        regulated pharmaceutical wastes.

OIG Response: The term “Hazardous Pharmaceutical Waste (HPW)” has been changed in the
report to “Hazardous Waste Pharmaceutical (HWP)” as requested by OSWER. We note that this
represents a recent change, as HPW was used in prior EPA publications such as the 2008
proposed universal waste rule and the 2010 draft Guidance Document: Best Management
Practices for Unused Pharmaceuticals at Health Care Facilities. HWP was most recently used
in OSWER’s Management Standards for Hazardous Waste Pharmaceuticals published in the
Fall 2011 Regulatory Agenda. However, we note that OSWER continues to use the term
“hazardous pharmaceutical wastes” in recent updates to its UWR website. We suggest that
OSWER consistently use “hazardous waste pharmaceuticals” in all future publications. The
report uses “unregulated HWP” to refer to pharmaceutical wastes not currently regulated by
RCRA, instead of “non-regulated pharmaceutical waste.”

    2.	 Recommend using the term “active pharmaceutical ingredients (APIs)” when discussing chemicals
        in the environment since environmental analysis tests for individual APIs.

OIG Response: This change will not be incorporated, as it would add unneeded complexity to
the terminology of the report.




12-P-0508                                                                                                21
   At a Glance:

   3.	 Background, left-hand column, 2nd sentence: Add drinking water to the list of types of water where
       APIs are found.

OIG Response: “Drinking water” added as suggested.

   4.	 Background, left-hand column: When discussing APIs in water it is important to note that: 1) While
       improper disposal of drugs contributes to the presence of APIs in our nation’s waters, other
       contributions include excretion and pass-through from POTWs; and 2) Available studies identify
       very few APIs in water that are regulated hazardous wastes.

OIG Response: This point will not be added to the Background in the At a Glance section. The
additional level of detail is not appropriate for this section, which is intended to provide a
snapshot of what the report is about.

   5.	 “What We Found,” 1st paragraph, 5th sentence: For accuracy, revise to read “We identified eight
       chemicals found in pharmaceuticals that meet EPA’s criteria for regulation as acute hazardous
       waste but wastes containing these chemicals are not regulated, unless they exhibit a
       characteristic.”

OIG Response: The important point in this statement is that these pharmaceuticals have not
been specifically identified by EPA for regulation as acute hazardous waste even though they
meet the toxicity criteria. “As such” added to the end of the sentence for clarification.

   6.	 “What We Found,” 1st paragraph, 6th sentence: For accuracy, revise to read “There are over 100
       drugs that federal occupational safety organizations have identified as hazardous but have only
       recently been reviewed by EPA to determine whether they may qualify as hazardous waste. As a
       result of comments received on the proposed rule for pharmaceutical wastes, EPA started an
       examination of the lists from OSHA and NIOSH for potential candidates for listing as commercial
       chemical products. EPA found that relatively few of them would meet the criteria for listing as acute
       hazardous waste under the commercial chemical product listings (40 CFR 261.33(e)), similar
       results to those found by the OIG in its work for this study.”

OIG Response: No change was made because the referenced sentence is accurate as written.
A new sentence was added to acknowledge EPA’s stated efforts: “EPA staff stated they have
started examining these drugs for listing as hazardous waste.”

   7.	 “What We Found,” 2nd paragraph, 3rd sentence: Delete and replace with “This may result in
       mismanagement of hazardous waste pharmaceuticals.” Note: RCRA regulations generally allow
       drain disposal of HW. The domestic sewage exclusion of 40 CFR 261.4(a)(1)(ii) is designed to
       avoid duplicative regulation under the Clean Water Act and RCRA and thus defers coverage of
       domestic sewage to the Clean Water Act regulations.


12-P-0508                                                                                                22
OIG Response: Sentence changed as suggested.

    8.	 “What We Found,” 3rd paragraph: Delete 2nd sentence.

OIG Response: No change was made. The sentence states that no action has occurred on the
2008 UWR since 2009. EPA states in the Fall 2011 Regulatory Agenda, “…EPA is considering
re-proposing healthcare facility-specific regulations for the management of hazardous
pharmaceutical wastes…,” but no specific action has yet been taken.

    9.	 “What We Found,” 3rd paragraph, 3rd sentence: For accuracy, revise to read “EPA staff informed us
        that, due to substantial negative public comments received on the 2008 universal waste proposal,
        the Agency is developing a revised proposal for regulation of hazardous waste pharmaceuticals at
        healthcare facilities.”

OIG Response: Sentence modified to incorporate this comment.

Table of Contents:

    10. Suggest including the word “findings” in the title of Chapter 2 for clarity.

OIG Response: No change was made. This is an editorial comment and it is our opinion that the
title is an appropriate description of the contents of the chapter.

Chapter 1:

    11. Page 1, Background, 2nd sentence: Add a clarifying footnote at the end of the sentence to read
        “Note: very few, if any antibiotics and endocrine disrupters are HWP. In addition, they do not meet
        the current hazardous waste listing/characteristic criteria.”

OIG Response: No change was made. This statement in the report is an accurate summary of
statements in the GAO report, Environmental Health: Action Needed to Sustain Agencies’
Collaboration on Pharmaceuticals in Drinking Water, August 2011. Further, EPA provides no
evidence for the statement that “few, if any antibiotics and endocrine disrupters are HWP.”

    12. Page 1, Background, 3rd and 4th sentences: Recommend providing references to sources for
        information presented about detrimental effects of pharmaceuticals on aquatic species, etc.

OIG Response: These statements are based on information in the EPA Health Services Industry
Study Management and Disposal of Unused Pharmaceuticals (Interim Technical Report) August
2008; and the GAO report, Action Needed to Sustain Agencies’ Collaboration on
Pharmaceuticals in Drinking Water, August 2011.

    13. Page 1, Background, 2nd paragraph, 1st sentence: Replace definition of pharmaceutical, or explain
        the source of this definition. At this time, EPA does not have a formal definition of pharmaceutical.
        EPA proposed a regulatory definition of pharmaceutical in the 2008 proposal, but since the rule



12-P-0508                                                                                                  23
       was not finalized, that definition is not in place. FDA may have a definition that would serve the
       purpose.

OIG Response: This definition is from the 2008 proposal. “In the 2008 proposed universal
waste rule,” added for clarity.

   14. Page 1-2, Background, last sentence: For clarity, revise to read “A Pharmaceutical becomes a
       waste when a decision is made to dispose of it. This can include unused but expired drugs (e.g.,
       personal medications) and waste materials containing excess drugs, such as syringes, IV bags,
       tubing, vials, etc.”

OIG Response: No change was made. Footnote 1 specifies that EPA does not regulate
pharmaceuticals until they are discarded as waste, which is when a decision is made to dispose of
them.

   15. Page 1, Footnote 1: Revise to read “Under RCRA, EPA can not regulate pharmaceuticals until a
       decision is made to dispose of it.”

OIG Response: No change was made. Footnote 1 specifies that EPA does not regulate
pharmaceuticals until they are discarded as waste, which is when a decision is made to dispose of
them.

   16. Page 2, Footnote 2: To incorporate information provided by public commenters on the 2008
       proposed rule, revise to read “Reverse distributors are private companies that provide a service to
       the health care industry by determining credit eligibility on returned pharmaceuticals and by
       facilitating the receipt of proper credit.”

OIG Response: The definition of distributors was taken directly from the 2010 EPA draft
Guidance Document: Best Management Practices for Unused Pharmaceuticals at Health Care
Facilities.

   17. Page 2, Background, Last sentence: For accuracy, revise to read “The domestic sewage exclusion
       at 40 CFR 261.4(a)(1)(ii) generally allows facilities to flush pharmaceuticals down the drain.
       However, due to the detection of active pharmaceutical ingredients in the environment, EPA
       recommends that facilities not dispose of their pharmaceuticals down the drain.”

OIG Response: The sentence is accurate as written, and was used by EPA in its 2010 draft
Guidance Document: Best Management Practices for Unused Pharmaceuticals at Health Care
Facilities. At the beginning of the sentence, we added the words “Although the domestic sewage
exclusion generally allows facilities to flush pharmaceuticals down the drain,” to address this
comment.

   18. Page 2, EPA Definition of Hazardous Waste, 3rd and 4th sentences: For accuracy, revise to read
       “Federally, any facility, such as a hospital or other health facility, that generates more than 100 kg



12-P-0508                                                                                                   24
       (220 lbs.) and less than 1000 kg (2200 lbs) of hazardous waste per month, is a small quantity
       generator (SQG) under RCRA. A facility that generates greater than 1 kg (2.2 lbs.) of acute
       hazardous waste per month and/or 1000 kg (2200 lbs.) or more of hazardous waste per month is a
       large quantity generator (LQG) under RCRA. Facilities that generate less than SQGs and LQGs
       per month have minimal RCRA requirements. Both SQGs and LQGs are subject to full RCRA
       hazardous waste regulation. Full RCRA regulations generally include management standards for
       waste accumulation and required transportation by a hazardous waste transporter to a permitted
       hazardous waste treatment, storage and disposal facility. “ DOT regulations require certain
       container packaging for transport, and RCRA defers to DOT on this.

OIG Response: The sentences are accurate as written, and the suggested revisions provide a
level of detail not necessary for this report and, in our opinion, will impede readability of the
report.

   19. Page 2, “corrosivity”: For accuracy, revise to read “wastes that are extremely acidic or alkaline
       (basic).”

OIG Response: OIG’s definition is accurate. It is identical with the definitions in the EPA’s
RCRA Orientation Manual 2011.

   20. Page 3, c: For accuracy, revise to read “Chemicals are included on the U-list based on toxicity or
       other characteristics. Chemicals are included on the P-list if they are acutely toxic. P-list chemicals
       are regulated when generated in lower quantities than U-list chemicals.”

OIG Response: Sentences changed as suggested.

   21. Page 3, 1st full sentence: For accuracy, revise to read “P-listed wastes are identified as acute
       hazardous waste because the waste has been found to be fatal to humans or animals above
       certain thresholds/doses.”

OIG Response: Sentence changed as suggested.

   22. Page 3, Footnote 4: For accuracy, revise to read “The LD50 and LC50 value is a measure of acute
       toxicity and indicates the ability of a toxic or poisonous substance to kill half the population in
       animal studies within the study’s timeframe.”

OIG Response: Footnote wording changed to “The LD50 and LC50 value is a measure of acute
toxicity, and indicates the ability of a toxic or poisonous substance to kill half the population in
animal studies after a specified test duration.”

   23. Page 3, EPA Definition of Hazardous Waste, last paragraph, first sentence: For clarity, revise to
       read “Pharmaceuticals can be included on the U-list if they exhibit any of the four hazardous
       characteristics…”

OIG Response: “Four” added to the sentence as suggested.


12-P-0508                                                                                                   25
   24. Page 3, Volume of Hazardous Pharmaceutical Waste, 3rd and 4th sentences: For accuracy, revise
       to read “However, estimates of the volume of HWP may be understated because under federal
       regulations, only large quantity generators are required to report their hazardous waste types and
       volumes.”

OIG Response: A new sentence was added after the fourth sentence: “Further, federal
regulations require only large quantity generators to report their hazardous waste types and
volumes to EPA.”

   25. Page 3, Footnote 5: For clarity, revise to read “Hazardous waste generators producing more than
       2,200 pounds of hazardous waste, or more than 2.2 pounds of acute hazardous waste, in a
       calendar month must report the waste type and volume to EPA every 2 years.”

OIG Response: Sentence changed as suggested.

   26. Page 3-4, sentence beginning “EPA estimates…”: Recommend additional context such as how
       much total hazardous waste is generated per year.

OIG Response: We added to footnote 5: “The total volume of hazardous waste reported in 2009
was approximately 35 million tons.”

   27. Page 4, EPA’s Best Management Practices Guidance for Pharmaceuticals, last sentence: For
       accuracy revise to read “The draft guidance describes BMPs that EPA recommends to health care
       facilities, long-term care facilities, medical clinics, and doctors’ offices, when managing and
       disposing of unused pharmaceuticals. Numerous comments were received on the draft BMPs.”

OIG Response: No change was made. The statement is accurate as written and adding the
suggested additional text is not necessary for purposes of the OIG’s report.

   28. Page 4, last 2 sentences: For accuracy, revise to read: 	“In 2009, EPA summarized comments on
       the proposed rule. There was substantial negative comment on the proposed rule such that the
       Agency decided that it could not address the comments without re-proposing a new rule. Since the
       fall of 2010, the Agency has been actively developing a new proposed rule that addresses the
       comments received on the Universal Waste proposal.”

OIG Response: We added the following new sentences to reflect EPA’s current position on the
rulemaking: “According to EPA, there was substantial negative comment on the proposed rule
such that the Agency decided that it could not address the comments without re-proposing a new
rule. EPA has recently stated that the Agency has decided to develop another proposal for
healthcare facility-specific regulations for the management of hazardous waste pharmaceuticals.”

   29. Page 5, Other Federal Agency Hazardous Drug Lists, 2nd to last sentence: For accuracy, revise to
       read: “OSHA developed a hazardous drug list in the early 1990s and it remains a primary



12-P-0508                                                                                               26
       reference for health care facilities for identifying drugs that may pose occupational risks to
       employees.”

OIG Response: No was made change. The statement is accurate as written.

Chapter 2:

   30. Page 7, 1st sentence: For accuracy, revise to read “Although EPA has the authority under RCRA, it
       has not added to its regulations pharmaceuticals that may qualify as hazardous waste since 1980.”

OIG Response: Sentence changed as suggested.

   31. Page 7, 5th sentence: For accuracy, revise to read “However, the rule was stalled during the last
       half of 2009 and in early 2010. In the fall of 2010, EPA decided it would need to revise the
       proposed UWR or create a new rule. “

OIG Response: To reflect EPA’s current position, we changed the sentence from “However, the
rule has been stalled since 2009 and EPA just recently decided it would determine the need to
revise the proposed UWR or create a new rule,” to “However, the rule has been stalled since
2009 and EPA just recently decided it would develop another proposal for healthcare facility-
specific regulations for the management of HWPs.”

   32. Page 7, 6th sentence: For accuracy, revise to read “Given the proliferation of pharmaceutical
       development since RCRA was enacted, EPA inaction on adding to its regulations pharmaceuticals
       that qualify as hazardous waste may result in unsafe disposal and releases of dangerous
       pharmaceuticals into the environment.”

OIG Response: Sentence revised as suggested.

   33. Page 7-8, end of 1st incomplete paragraph: Revise to reflect information in the General Comment
       on Hazardous Waste Identification.

OIG Response: No change was made. Additional requirements for U-listing are noted in the
footnote.

   34. Page 8, 1st full paragraph, 2nd sentence: For accuracy, revised to read “Currently, EPA
       recommends RCRA guidelines as a BMP for managing NIOSH-listed hazardous materials that are
       not currently regulated as HWP.” For completeness, OIG should provide a citation for this
       statement.

OIG Response: The statement is accurate as written. The source is EPA’s 2010 draft Guidance
Document: Best Management Practices for Unused Pharmaceuticals at Health Care Facilities.
However, OIG has added text from the draft Guidance Document to clarify that RCRA does not
require facilities to manage NIOSH-listed hazardous materials the same as RCRA hazardous
waste.


12-P-0508                                                                                                  27
   35. Page 9, 1st full paragraph: Add a reference to the “2008 Universal Waste proposed rule.”

OIG Response: Text added to the first sentence on page 9 to clarify that the reference is to the
2008 Universal Waste proposed rule.

   36. Page 9, 1st full paragraph, 2nd sentence: Explain, or delete the term “bulk waste.”

OIG Response: The term is from the 2008 Universal Waste proposed rule: page 73530, Federal
Register Vol. 73, No. 232, December 2, 2008.

   37. Page 10, 1st paragraph: It would be helpful to explain what regulatory requirement the New York
       Attorney General used to cite hospitals for disposing of pharmaceutical wastes down sinks and
       toilets. NY may have more stringent regulations regarding drain disposal of hazardous wastes than
       the current federal RCRA program, which includes the domestic sewage exclusion of 40 CFR
       261.4(a)(1)(ii).

OIG Response: The statement is based on public information released by the New York
Attorney General. The sentence has been modified to address only violations clearly identified as
federal RCRA violations.

   38. Page 10, Title - EPA Pharmaceutical Waste Rulemaking Has Stalled: The title appears to be a
       remnant from before the section was updated to include recent rule development activity. Also see
       next comment for further updates. For accuracy, revise to reflect progress the Agency has made
       developing a new proposed rule to read “EPA is Making Progress On a New Pharmaceutical
       Waste Rulemaking.”

OIG Response: Title changed to “EPA Is Developing a New Pharmaceutical Rulemaking”

   39. Page 10: 3rd paragraph, 1st – 2nd sentences: To update and for accuracy, revise to read “Shortly
       after receiving and reviewing public comments in 2009, EPA determined that the 2008 UW
       proposal could not be used as a basis for a final rule that would address commenters’ concerns.
       ORCR staff said that in the fall of 2010, they began developing a new proposal for the health care
       industry for managing hazardous waste pharmaceuticals. In September of 2011 the Agency
       completed Early Guidance, the first of three major milestones in its rule development process, and
       expects to complete Option Selection, the second milestone, in April of 2012.”

OIG Response: Sentences added as suggested, changed to reflect Agency completion of Option
Selection.

   40. Page 11, 2nd sentence: For accuracy, revise to read “EPA’s belief that there is widespread
       noncompliance in the health care industry with RCRA hazardous waste regulations suggests that
       there may be potential risks to human health and the environment from regulated hazardous waste
       pharmaceuticals.”


12-P-0508                                                                                              28
OIG Response: No change was made. This is an editorial comment that is not materially
different than OIG’s original conclusions.

   41. Page 11, 3rd – 5th sentences: For accuracy, revise to read “In addition, because EPA’s rule to
       improve management of HWP must be re-proposed, the current RCRA HW generator regulations
       continue apply to generators of HWPs. The RCRA HW generator regulations can be challenging
       for healthcare facilities, which may result in non-compliance over the short term. Also, over 100
       drugs have been identified by other federal agencies as pharmaceuticals that pose potential
       hazards, whereas EPA only regulates 31 pharmaceutical compounds as listed hazardous wastes
       and additional pharmaceutical compounds as characteristic hazardous wastes. The Agency has
       recently conducted a review of other federal agencies’ lists to begin to address this issue.” Note:
       The Agency does not rely on best management practices or BMPs to regulate pharmaceuticals
       that are hazardous waste, the current RCRA regulations are in effect for hazardous waste
       pharmaceuticals.

OIG Response: No change was made. These are OIG conclusions.

Appendix A:

   42. Page 13, Table, For accuracy, revise to read “P-listed RCRA Hazardous Waste pharmaceuticals.”

OIG Response: “Hazardous” added to the heading as suggested.

   43. Page 13, Table: For accuracy, for phentermine and physostigmine salicylate, add a footnote
       indicating the toxicity exposure route and LD dose that was the basis for the P-listing. Without the
       footnote, the chart seems to indicate that because no rat oral LD50 was found, there was no
       reason to list the chemical. However, both chemicals were listed based on toxicology information
       for one of three exposure routes.

OIG Response: No change was made. The statement about the lack of a rat oral LD50 does not
imply that there was no reason to list the chemical based on EPA’s analysis. It simply states that
no rat oral LD50 was found.

   44. Page 13, Table: For accuracy, revise column header to read: “	U-listed RCRA Hazardous Waste
       pharmaceuticals with P-level LD50 values.”

OIG Response: “Hazardous” added to heading consistent with the suggested change.




12-P-0508                                                                                                29
                                                                                Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for Solid Waste and Emergency Response
Deputy Assistant Administrator for Solid Waste and Emergency Response
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Resource Conservation and Recovery, Office of Solid Waste and
   Emergency Response
Audit Follow-Up Coordinator, Office of Solid Waste and Emergency Response




12-P-0508                                                                               30
